                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM
                                                                               1               1             1
 Case Number: I0704001 1                                                                    Page 1 of 1



         We received a notification that a university1 contacted NSF requesting to remove the PI^ from a
         proposal3 that was later funded. Upon review, we determined that as the result of a qui tam4 the
         university reached a settlement and compliance agreement with another federal agency.5

         Because the wrongdoing identified in the settlement could have impacted the use of NSF funds,
         we selected an award6to review. Concurrent with OIG's review of the documentation, the
         university7 conducted an internal audit of the same award and determined that NSF funds had
         been improperly used.* The university returned the improperly used funds to NSF.
         Subsequently, we selected another NSF awardg on which we asked the university to conduct a
         review. The university again determined that some NSF funds had been improperly used and
         again returned the misused funds1° to NSF.

         Based on the admissions in the qui tam settlement and the identified misuse of IVSF funds, we
         recommended that NSF treat the university as a high risk institution. In lieu of such a
         designation, NSF decided that the university will be monitored by its Cost Analysis and Audit
         Resolution branch, and NSF placed the institution on "special payments" until the institution can
         demonstrate that it has proper stewardship over its federal funds. Accordingly, this I Case is
         closed.




NSF 01G Form 2 (1 1/02)
